      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                          Washington, D.C. 20201




October 26, 2010

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Oversight and Evaluation of the Fiscal Year 2008 Payment Error Rate
               Measurement Program (A-06-09-00037)


The attached final report provides the results of our review of our oversight and evaluation of the
fiscal year (FY) 2008 Payment Error Rate Measurement (PERM) program. The Centers for
Medicare & Medicaid Services (CMS) developed the PERM program to comply with the
Improper Payments Information Act of 2002, P.L. No. 107-300, and Office of Management and
Budget requirements for measuring improper Medicaid program and Children’s Health Insurance
Program (CHIP) payments. CMS’s PERM program measures improper payments made in the
fee-for-service, managed care, and eligibility components of Medicaid in FY 2008 and will
measure improper payments under Medicaid and CHIP in future years.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Joseph J. Green, Assistant Inspector General for Financial Management
and Regional Operations, at (202) 619-1157 or through email at Joe.Green@oig.hhs.gov. We
look forward to receiving your final management decision within 6 months. Please refer to
report number A-06-09-00037 in all correspondence.


Attachment
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




OVERSIGHT AND EVALUATION OF THE
FISCAL YEAR 2008 PAYMENT ERROR
  RATE MEASUREMENT PROGRAM




                        Daniel R. Levinson
                         Inspector General

                          October 2010
                          A-06-09-00037
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Improper Payments Information Act of 2002 (IPIA) requires the head of a Federal agency
with any program or activity that may be susceptible to significant improper payments to report
to Congress the agency’s estimates of the improper payments. In addition, for any program or
activity with estimated improper payments exceeding $10 million, the agency must report to
Congress the actions that the agency is taking to reduce those payments. Section 2(f) of the IPIA
requires the Director of the Office of Management and Budget (OMB) to prescribe guidance on
implementing IPIA requirements.

The Centers for Medicare & Medicaid Services (CMS) developed the Payment Error Rate
Measurement (PERM) program to comply with IPIA and OMB requirements for measuring
improper Medicaid program and Children’s Health Insurance Program (CHIP) payments.
CMS’s PERM program measures improper payments made in the fee-for-service (FFS),
managed care, and eligibility components of Medicaid in fiscal year (FY) 2008 and will measure
improper payments under Medicaid and CHIP in future years.

Four contractors were responsible for operating the FY 2008 PERM program: two statistical
contractors, a documentation/database contractor, and a review contractor.

OBJECTIVE

Our objective was to determine whether the States’ Medicaid FFS and managed care universes
for the FY 2008 PERM program were complete and accurate.

SUMMARY OF FINDINGS

State One did not maintain hospital information on a claim-by-claim basis, and we were not able
to reconcile the State universes from four other States to their Forms CMS-64. The States’
Medicaid FFS and managed care universes for the FY 2008 PERM program were or may have
been incomplete or inaccurate. As a result, CMS could not be assured that the PERM program
produced a reasonable estimate of improper payments.

RECOMMENDATIONS

We recommend that CMS:

   •   require State One to maintain hospital payment information on a claim-by-claim basis for
       use in future PERM reviews and

   •   continue to work with the States, CMS Regional Offices, and statistical contractors on
       reconciling the PERM universes to State financial reports.




                                                i
CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In its comments on our draft report, CMS agreed with our recommendations and discussed the
corrective actions it has taken or plans to take in response. CMS’s comments are included in
their entirety as Appendix E.




                                              ii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION......................................................................................................................1

       BACKGROUND ................................................................................................................1
           Improper Payments Information Act of 2002 .........................................................1
           Improper Payments Information Act of 2002 Implementation Guidance ..............1
           Payment Error Rate Measurement Program ...........................................................1
           Payment Error Rate Measurement Program Process ..............................................2
           Waiver on Selection of States .................................................................................3
           State Financial Reporting Requirements ................................................................3

       OBJECTIVE, SCOPE, AND METHODOLOGY ..............................................................3
            Objective .................................................................................................................3
            Scope .......................................................................................................................3
            Methodology ...........................................................................................................4

FINDINGS AND RECOMMENDATIONS ............................................................................4

       UNIVERSES MAY HAVE BEEN INCOMPLETE OR INACCURATE .........................4
            State One .................................................................................................................5
            State Two ................................................................................................................5
            State Three ..............................................................................................................5
            State Four ................................................................................................................5
            State Five ...............................................................................................................6

       RECOMMENDATIONS ....................................................................................................6

       CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS………………6

APPENDIXES

       A: STATE TWO RECONCILIATION

       B: STATE THREE RECONCILIATION

       C: STATE FOUR RECONCILIATION

       D: STATE FIVE RECONCILIATION

       E: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                    iii
                                             INTRODUCTION

BACKGROUND

Improper Payments Information Act of 2002

The Improper Payments Information Act of 2002 (IPIA), P.L. No. 107-300, requires the head of
a Federal agency with any program or activity that may be susceptible to significant improper
payments to report to Congress the agency’s estimates of the improper payments. In addition,
for any program activity with estimated improper payments exceeding $10 million, the agency
must report to Congress the actions that the agency is taking to reduce those payments. Pursuant
to section 2(f) of the IPIA, the Director of the Office of Management and Budget (OMB) must
prescribe guidance on implementing IPIA requirements.

Improper Payments Information Act of 2002 Implementation Guidance

Unless a written waiver is obtained from OMB, OMB Circular A-123, Appendix C, requires an
agency to:

        Review all programs and activities and identify those which are susceptible to
        significant erroneous payments.… Obtain a statistically valid estimate of the
        annual amount of improper payments in programs and activities .… Implement a
        plan to reduce erroneous payments.… [and] Report estimates of the annual
        amount of improper payments in programs and activities and progress in reducing
        them.

In its Implementation Guidance, OMB identified the Medicaid program and the Children’s
Health Insurance Program (CHIP) as programs at risk for significant erroneous payments. OMB
requires the Department of Health & Human Services (HHS) to report the estimated amount of
improper payments for each program annually in its accountability report. For example, the
fiscal year (FY) 2008 Medicaid improper payments totaled 8.7 percent, or $16.4 billion (Federal
share), which was reported in the HHS FY 2009 Agency Financial Report, dated November 16,
2009, and the Medicaid Payment Error Rate Measurement Final Report for FY 2008, dated
October 2009.

Payment Error Rate Measurement Program

The Centers for Medicare & Medicaid Services (CMS) developed the Payment Error Rate
Measurement (PERM) program to comply with IPIA and OMB requirements for measuring
improper Medicaid and CHIP payments. 1 CMS’s PERM program measures improper payments
made in the fee-for-service (FFS), managed care, and eligibility components of Medicaid and

1
 CMS issued the following rules to implement its PERM program: proposed rule, 69 Fed. Reg. 52620 (Aug. 27,
2004); interim final rule with comment period, 70 Fed. Reg. 58260 (Oct. 5, 2005); second interim final rule with
comment period, 71 Fed. Reg. 51050 (Aug. 28, 2006); final rule, 72 Fed. Reg. 50490 (Aug. 31, 2007) (as codified at
42 CFR §§ 431.950–431.1002 and 42 CFR § 457.720); and proposed rule, 74 Fed. Reg. 34468 (July 15, 2009).


                                                        1
CHIP in FY 2008 and will measure improper payments under Medicaid and CHIP in future
years. 2

Payment Error Rate Measurement Program Process

Under the PERM process, Medicaid and CHIP are divided into three different components: FFS,
managed care, and eligibility. Each component has separate universes, samples, and error
estimates. The States are responsible for compiling the Medicaid and CHIP claims universes
each quarter and the eligibility universes each month. CMS requires States 3 to submit quarterly
to the statistical contractor one universe each for FFS and managed care. States compile PERM
universe files from Medicaid Management Information Systems (MMIS) and other sources. 4
The statistical contractor selects a sample from each of the quarterly universes. CMS also
requires each State to select a sample of Medicaid and CHIP eligibility case files to determine
whether they were correctly approved or denied. The FFS sample size is designed to be 500
claims per year per State, and the managed care sample size is 250 claims per year per State.
The eligibility sample is split between eligible case files (504) and ineligible case files (204).

CMS used four contractors for the FY 2008 PERM program: two statistical contractors, a
documentation/database contractor, and a review contractor. The statistical contractors were
responsible for collecting and stratifying State universe information, 5 selecting quarterly samples
of claims 6 for each of the 17 sampled States, calculating the estimated amount of State and
national Medicaid and CHIP improper payments, and writing the final PERM report for CMS.
The documentation/database contractor was responsible for receiving the claim information from
the States, requesting State Medicaid and CHIP policies, and requesting medical records from
providers. The review contractor was responsible for using the policies and medical records
obtained by the documentation/database contractor to perform medical and data processing
reviews, resolving differences in State and review contractor determinations, working with States
to reprice errors, providing determinations to the statistical contractor, and assisting the statistical
contractor in writing the final PERM report.



2
  On February 4, 2009, the Children’s Health Insurance Program Reauthorization Act of 2009 (CHIPRA),
P.L. No. 111-3, was enacted. CHIPRA requires a new final rule to implement changes to the PERM process for
CHIP and states that the Secretary shall not calculate or publish a PERM error rate for CHIP until 6 months after the
final rule is published in the Federal Register. A proposed rule was published at 74 Fed. Reg. 34468 (July 15,
2009), but the final rule has not been published. As a result, CMS stopped work on calculating a CHIP error rate for
FY 2008.
3
    The “States” include all 50 States and the District of Columbia.
4
  States, unless the requirement is waived by the Secretary of HHS, are required to process Medicaid payments
through an MMIS approved by the Secretary.
5
 In this report, we use the term “State universe” to refer to all of the claim information from which a State’s samples
were selected.
6
  The PERM sampling unit is the lowest separately priced unit on a beneficiary-specific claim. This is typically a
line item. However, for some types of claims, such as those representing diagnostic-related groups, the lowest
separately priced item is the claim itself. We refer to the sampling unit as a “claim” in this report.

                                                            2
Waiver on Selection of States

Pursuant to OMB Circular A-123, Appendix C, an agency is required to develop a statistically
valid estimate of erroneous payments unless OMB grants specific written approval (i.e., a
waiver). CMS obtained a waiver from OMB allowing CMS to use an alternate sampling
methodology that would allow every State to participate in the PERM program only once over a
3-year period, resulting in 17 States’ participating in the PERM program every year.

State Financial Reporting Requirements

The CMS State Medicaid Manual, section 2500, requires that the amounts reported on the
Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program (Form
CMS-64) be actual expenditures and be in readily reviewable form. The information for Form
CMS-64 expenditures is obtained from invoices, cost reports, eligibility records, and other
sources. States should not claim estimated expenditure amounts on the Form CMS-64. CMS
guidance on the Quarterly Children’s Health Insurance Program Statement of Expenditures for
Title XXI (Form CMS-21) is the same as for Form CMS-64.

In our review of the FY 2007 PERM program, 7 we found that the PERM universes from four
States for two quarters did not reconcile to the Form CMS-64 or Form CMS-21. In the PERM
FFY 2009 Universe Data Submission Instructions, CMS requires States to compare their
quarterly PERM universes to Forms CMS-64 and CMS-21 from the two previous quarters to
ensure that all applicable programs from all necessary data sources are included in their PERM
universes. For FY 2009, CMS also requires the statistical contractor to reconcile each State’s
quarterly universe to that same quarter’s Forms CMS-64 and CMS-21.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the States’ Medicaid FFS and managed care universes
for the FY 2008 PERM program were complete and accurate.

Scope

We reviewed the accuracy of four States’ universes. We did not review the overall internal
control structure of the PERM contractors, the States, or CMS, nor did we independently verify
the error rate calculation. Because CMS stopped work on CHIP for the FY 2008 cycle, we did
not perform any testing of CHIP.

We performed fieldwork at The Lewin Group (the statistical contractor), in Falls Church,
Virginia, and Livanta, LLC (the statistical contractor), in Columbia, Maryland. We also
performed fieldwork at the Washington Department of Social and Health Services in Olympia,
Washington; Indiana Office of Medicaid Policy and Planning in Indianapolis, Indiana; Florida

7
 Oversight and Evaluation of the Fiscal Year 2007 Payment Error Rate Measurement Program, issued May 5, 2010
(A-06-08-00078).

                                                     3
Bureau of Quality Management in Tallahassee, Florida; and Nevada Division of Health Care
Financing and Policy in Carson City, Nevada. We performed our fieldwork from April through
September 2009.

Methodology

To accomplish our objective, we:

    •    met with CMS officials and PERM contractors to obtain an understanding of any changes
         in the PERM process and issues with States,

    •    reviewed documentation from the statistical contractor related to problems with one
         State’s universe,

    •    met with officials of four States to obtain an understanding of the PERM process at the
         State level, and

    •    attempted to reconcile the four selected States’ Forms CMS-64 to their State universes.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                               FINDINGS AND RECOMMENDATIONS

The States’ Medicaid FFS and managed care universes for the FY 2008 PERM program were or
may have been incomplete or inaccurate. As a result, CMS could not be assured that the PERM
program produced a reasonable estimate of improper payments.

UNIVERSES MAY HAVE BEEN INCOMPLETE OR INACCURATE

One State did not submit a complete universe, and we were not able to reconcile the State
universes from four States to their Forms CMS-64. Accordingly, the statistical contractor
selected samples of paid claims from State paid-claims universes that were incomplete or may
not have been complete and accurate. The statistical contractor attempted to reconcile each of
the States’ quarterly universes to the Forms CMS-64. Despite this effort by the statistical
contractor, there were still unresolved differences between the PERM universes and the Forms
CMS-64.

According to the PERM FY 2008 Universe Data Submission Instructions, the PERM universe 8
should have consisted of adjudicated or paid Medicaid and CHIP FFS and managed care claims

8
  For this report, we use the term “PERM universe” to refer to all claim information from all States to be sampled in
a specific time period.


                                                          4
that were originally paid or denied payment from October 1, 2007, through September 30, 2008,
and that involved Federal financial participation. If the States followed all guidance correctly,
the PERM universe should have contained all Medicaid FFS and managed care payments,
including those processed outside the States’ payment systems. Each PERM universe should
have included claims for which the States had no additional payment liability because, for
example, a third party was liable or a Medicare payment exceeded the States’ allowable charges.

State One

State One did not pay inpatient or outpatient hospitals on a claim-by-claim basis. 9 Rather, State
One made weekly payments to hospitals based on expenditure data from previous years. State
One’s hospital payments accounted for approximately 21 percent of its Medicaid expenditures.

Because State One did not pay hospitals on a claim-by-claim basis, CMS excluded all of the
State’s hospital payments from State One’s calculation of the PERM error rate. The error rate
was based on the remaining 79 percent of the payments in State One’s universe and was assumed
to be the same for the hospital payments. State One’s error rate was included in the national
error rate.

State Two

We were not able to completely reconcile State Two’s Medicaid universes to the Form CMS-64
data. Because we were unable to reconcile the Form CMS-64 data to the State Two universes,
we discussed our reconciliation with State Two officials. State Two was unable to provide
additional information to assist us in reconciling State Two’s Form CMS-64 data to its universes
and could not explain the differences. The differences we identified during the reconciliation
attempt are shown in Appendix A.

State Three

We were not able to completely reconcile State Three’s Medicaid universes to the Form
CMS-64 data. Because we were unable to reconcile the Form CMS-64 data to the State Three
universes, we discussed our reconciliation with State Three officials. Although State Three
provided additional information, we still were unable to reconcile State Three’s Form CMS-64
data to its universes. The differences we identified during the reconciliation attempt are shown
in Appendix B.

State Four

We were not able to completely reconcile State Four’s Medicaid universes to the Form CMS-64
data. Because we were unable to reconcile the Form CMS-64 data to the State Four universes,
we discussed our reconciliation with State Four officials. We determined that State Four had
incorrectly reported expenditures on the Form CMS-64 for the fourth quarter of FY 2008 as a
result of implementing a new payment system. Although State Four and CMS provided

9
 Because this State did not submit a complete universe, we did not attempt a reconciliation of its universes to the
Form CMS-64.

                                                          5
additional information on how the fourth-quarter expenditures were reported and adjusted in
subsequent quarters, we still were unable to reconcile State Four’s Form CMS-64 data to its
universes. The differences we identified during the reconciliation attempt are shown in
Appendix C.

State Five

We were not able to completely reconcile State Five’s Medicaid universes to the Form CMS-64
data. Because we were unable to reconcile the Form CMS-64 data to the State Five universes,
we discussed our reconciliation with State Five officials. Although State Five provided
additional information, we still were unable to reconcile State Five’s Form CMS-64 data to its
universes. The differences we identified during the reconciliation attempt are shown in
Appendix D.

RECOMMENDATIONS

We recommend that CMS:

   •   require State One to maintain hospital payment information on a claim-by-claim basis for
       use in future PERM reviews and

   •   continue to work with the States, CMS Regional Offices, and statistical contractors on
       reconciling the PERM universes to State financial reports.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In its comments on our draft report, CMS agreed with our recommendations and discussed the
corrective actions it has taken or plans to take in response. CMS’s comments are included in
their entirety as Appendix E.




                                               6
APPENDIXES
                          APPENDIX A: STATE TWO RECONCILIATION

         Fee-for-Service Amounts Reported for the Payment Error Rate Measurement Program
                               and on Form CMS-64 for Fiscal Year 2008
                  Medicaid FFS      Medicaid FFS    Medicaid FFS     Medicaid FFS     Medicaid FFS
                   1st Quarter      2nd Quarter      3rd Quarter      4th Quarter         Total
State universe    $1,068,186,881    $1,070,076,843 $1,078,277,222     $1,095,859,366 $4,312,400,311
Form CMS-64
amounts           $1,105,414,199    $1,127,548,434 $1,084,179,975     $1,110,202,308 $4,427,344,916
Difference          ($37,227,318)     ($57,471,591)    ($5,902,753)     ($14,342,942) ($114,944,605)
Difference as a
percentage of
Form CMS-64
amounts               (3.4%)           (5.1%)           (0.5%)           (1.3%)          (2.6%)

        Managed Care Amounts Reported for the Payment Error Rate Measurement Program
                          and on Form CMS-64 for Fiscal Year 2008
                 Medicaid        Medicaid         Medicaid        Medicaid       Medicaid
                  Managed Care       Managed Care      Managed Care   Managed Care    Managed Care
                   1st Quarter       2nd Quarter       3rd Quarter    4th Quarter        Total
State universe      $451,022,583      $381,002,986     $391,861,458    $311,977,517   $1,535,864,544
Form CMS-64
amounts            $432,036,948        $363,019,874    $311,614,049    $372,034,506 $1,478,705,377
Difference          $18,985,635         $17,983,112     $80,247,409     ($60,056,989)  $57,159,167
Difference as a
percentage of
Form CMS-64
amounts               4.4%               5.0%             25.8%         (16.1%)           3.9%

           Combined Amounts Reported for the Payment Error Rate Measurement Program
                             and on Form CMS-64 for Fiscal Year 2008
                  Medicaid          Medicaid       Medicaid          Medicaid       Medicaid
                 1st Quarter      2nd Quarter     3rd Quarter      4th Quarter        Total
 State universe $1,519,209,465    $1,451,079,829 $1,470,138,680 $1,407,836,882 $5,848,264,856
 Form CMS-64
 amounts        $1,537,451,147    $1,490,568,308 $1,395,794,024 $1,482,236,814 $5,906,050,293
 Difference       ($18,241,682)     ($39,488,479)   $74,344,656      ($74,399,932) ($57,785,437)
 Difference as
 a percentage
 of Form
 CMS-64
 amounts            (1.2%)           (2.6%)          5.3%              (5.0%)        (1.0%)

      CMS = Centers for Medicare & Medicaid Services
      FFS = fee-for-service
                                                                                 Page 1 of 2


                     APPENDIX B: STATE THREE RECONCILIATION

       Fee-for-Service Amounts Reported for the Payment Error Rate Measurement Program
                             and on Form CMS-64 for Fiscal Year 2008
                                                                    Medicaid
                  Medicaid FFS    Medicaid FFS    Medicaid FFS        FFS      Medicaid FFS
                   1st Quarter     2nd Quarter      3rd Quarter   4th Quarter       Total
State universe    $944,145,820     $922,764,239    $940,758,758   $996,227,991 $3,803,896,807
Form CMS-64
amounts          $1,049,702,421    $942,811,603   $1,112,771,698 $982,854,799 $4,088,140,521
Difference       ($105,556,601) ($20,047,364)      ($172,012,940) $13,373,192   ($284,243,714)
Difference as
a percentage
of Form
CMS-64
amounts              (10.1%)          (2.1%)          (15.5%)         1.4%         (7.5%)

      Managed Care Amounts Reported for the Payment Error Rate Measurement Program
                        and on Form CMS-64 for Fiscal Year 2008
                                                               Medicaid
                Medicaid        Medicaid        Medicaid       Managed       Medicaid
                 Managed Care    Managed Care    Managed Care        Care        Managed Care
                  1st Quarter    2nd Quarter     3rd Quarter     4th Quarter         Total
State universe   $259,280,724    $265,701,773    $278,676,999    $295,020,508    $1,098,680,005
Form CMS-64
amounts          $280,273,318    $271,347,565    $285,563,245    $305,027,620    $1,142,211,748
Difference       ($20,992,594)   ($5,645,792)     ($6,886,246)   ($10,007,112)    ($43,531,743)
Difference as
a percentage
of Form
CMS-64
amounts             (7.5%)          (2.1%)          (2.4%)          (3.3%)          (4.0%)
                                                                             Page 2 of 2


          Combined Amounts Reported for the Payment Error Rate Measurement Program
                            and on Form CMS-64 for Fiscal Year 2008
                  Medicaid         Medicaid      Medicaid          Medicaid     Medicaid
                 1st Quarter      2nd Quarter   3rd Quarter      4th Quarter      Total
State universe $1,203,426,544 $1,188,466,012 $1,219,435,757 $1,291,248,499 $4,902,576,812
Form CMS-64
amounts        $1,329,975,739 $1,214,159,168 $1,398,334,943 $1,287,882,419 $5,230,352,269
Difference     ($126,549,195)    ($25,693,156) ($178,899,186)     $3,366,080  ($327,775,457)
Difference as
a percentage
of Form
CMS-64
amounts             (9.5%)          (2.1%)        (12.8%)            0.3%        (6.3%)
                                                                                    Page 1 of 2


                         APPENDIX C: STATE FOUR RECONCILIATION

       Fee-for-Service Amounts Reported for the Payment Error Rate Measurement Program
                           and on Form CMS-64 for Fiscal Year 2008
             Medicaid FFS    Medicaid FFS      Medicaid FFS    Medicaid FFS     Medicaid FFS
              1st Quarter     2nd Quarter       3rd Quarter     4th Quarter         Total
State
universe     $2,440,865,758    $2,418,369,272    $2,451,105,566    $2,099,138,099    $9,409,478,694
Form
CMS-64
amounts      $2,622,151,779    $2,889,740,920    $2,835,158,359    $2,689,801,661 $11,216,852,719
Difference    ($181,286,021)    ($471,371,648)    ($384,052,793)    ($770,663,562) ($1,807,374,025)
Difference
as a
percentage
of Form
CMS-64
amounts         (6.9%)           (16.3%)           (13.6%)            (26.9%)           (16.1%)

       Managed Care Amounts Reported for the Payment Error Rate Measurement Program
                        and on Form CMS-64 for Fiscal Year 2008
             Medicaid        Medicaid          Medicaid        Medicaid        Medicaid
             Managed Care      Managed Care      Managed Care      Managed Care     Managed Care
              1st Quarter      2nd Quarter       3rd Quarter       4th Quarter         Total
State
universe     $620,761,361      $618,716,093      $836,044,609      $419,420,461     $2,494,942,523
Form
CMS-64
amounts      $618,233,619      $684,735,119      $834,359,405       $600,814,534    $2,738,142,677
Difference     $2,527,742      ($66,019,026)       $1,685,204      ($181,394,073)    ($243,200,154)
Difference
as a
percentage
of Form
CMS-64
amounts          0.4%             (9.6%)            0.2%              (30.2%)           (8.9%)
                                                                                  Page 2 of 2


        Combined Amounts Reported for the Payment Error Rate Measurement Program
                        and on Form CMS-64 for Fiscal Year 2008
             Medicaid        Medicaid         Medicaid        Medicaid       Medicaid
            1st Quarter    2nd Quarter       3rd Quarter     4th Quarter       Total
State
universe     $3,061,627,119   $3,037,085,364   $3,287,150,175    $2,518,558,560   $11,904,421,218
Form
CMS-64
amounts      $3,240,385,398   $3,574,476,039   $3,669,517,764    $3,470,616,195 $13,954,995,396
Difference   ($178,758,279)   ($537,390,675)    ($382,367,589)   ($952,057,635) ($2,050,574,178)
Difference
as a
percentage
of Form
CMS-64
amounts          (5.5%)          (15.0%)          (10.4%)           (27.4%)          (14.7%)
                        APPENDIX D: STATE FIVE RECONCILIATION

         Fee-for-Service Amounts Reported for the Payment Error Rate Measurement Program
                              and on Form CMS-64 for Fiscal Year 2008
                  Medicaid FFS     Medicaid FFS      Medicaid FFS    Medicaid FFS  Medicaid FFS
                   1st Quarter      2nd Quarter      3rd Quarter     4th Quarter        Total
State universe      $250,812,935     $243,832,036     $239,335,661    $277,451,595 $1,011,432,227
Form CMS-64
amounts             $238,409,275     $229,911,597     $228,855,893    $264,926,868   $962,103,634
Difference            $12,403,660      $13,920,439     $10,479,768     $12,524,727    $49,328,593
Difference as a
percentage of
Form CMS-64
amounts                5.2%             6.1%            4.6%             4.7%           5.1%

         Managed Care Amounts Reported for the Payment Error Rate Measurement Program
                            and on Form CMS-64 for Fiscal Year 2008
                   Medicaid         Medicaid        Medicaid        Medicaid       Medicaid
                  Managed Care      Managed Care     Managed Care    Managed Care    Managed Care
                   1st Quarter      2nd Quarter      3rd Quarter     4th Quarter        Total
State universe       $43,819,697      $45,830,963      $44,316,187     $47,288,870   $181,255,717
Form CMS-64
amounts              $44,096,576       $45,515,215     $43,726,309     $48,338,155 $181,676,254
Difference             ($276,879)         $315,748        $589,878     ($1,049,285)   ($420,537)
Difference as a
percentage of
Form CMS-64
amounts              (0.6%)            0.7%             1.4%            (2.2%)          (0.2%)

           Combined Amounts Reported for the Payment Error Rate Measurement Program
                             and on Form CMS-64 for Fiscal Year 2008
                   Medicaid          Medicaid       Medicaid         Medicaid      Medicaid
                  1st Quarter      2nd Quarter    3rd Quarter       4th Quarter      Total
State universe     $294,632,632      $289,662,999   $283,651,848    $324,740,465 $1,192,687,944
Form CMS-64
amounts            $282,505,851      $275,426,812   $272,582,202    $313,265,023 $1,143,779,888
Difference          $12,126,781       $14,236,187    $11,069,646      $11,475,442   $48,908,056
Difference as a
percentage of
Form CMS-64
amounts               4.3%             5.2%           4.1%              3.7%         4.3%
                                                                                                                               Page 1 of3


APPENDIX E: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS 


    /   ....' .... ...
{         ~              DEPARTMENT OF HE ALTH & HUMA N SERVICES                                 Cen!<!rs 101 Mc<!ica re & Medicaid Se!Vioas

    ,,::~~L.                                                                                     Administrator
                                                                                                 WashinglOl1 , DC 20201




                          DATE:           SE P 0 7 1010
                         TO: 	             Daniel R. Levinson
                                           Inspector General           ~

                          FROM: 	          Donald M. Berw1ck, M 0                   \
                                           Admi ni strator

                         SUBJECT: 	 Offici: uflnspector General (DIG) Dran Report: "Oversight and
                                    Evaluation oCthe Fiscal Year 2008 Payment Error Rate Mea<;urement
                                           Program" (A-06-09-0003 7)

                         Thank yo u for the opportunity to comment on the OIG draft report titled. ··Oversight and
                         Evaluation orlhe Fiscal Year (FY) 2008 Payment Error Rate Measurement (PERlVf)
                         Program" (A-06-09-00037). We appreciate the O IG's review of the PERM program and
                         its recommendations for program improvement. We have reviewed the report and have
                         responded to your recommendations.

                         D IG H.eeommeml at ion

                         Require State One to maintain hospital payment infomlation on a claim-by-claim b..'1 sis
                         for use in futu re PERM reviews .

                         eMS Res po nse

                         The Centers for Med icare & Medicaid Services (C MS) concurs that Stale One] should
                         mainLain hospital payment infonnation on a claim-by-claim basi s. The statistical
                         methodology for the PERM program specifies that PERM universes should include only
                         payments made on behal r of indi vidual benefidaries. Aggregme payments are
                         specifically excluded from the PERM sampling frame. State One paid 1I1i in-Sllllt::
                         hospitals for inpati ent and outpatient services through weekly prospeCTive interim
                         payments (PIPs), lump sum payments based on each hospital's historical ag grega te
                         pa yment information, and periodically cost settled the differeoce between the allowed
                         amounts and the sum of the PH's. Although some beneficiary-level data was submitted
                         on " claims," it was not possible to determine the dollar amount in error associatcd with
                         these records because there was no paid amount. and the allowed am ount was unreliable
                         for outpatient services. Since only individual, benefieiary-Ievd payments are included in
                         the PERM SIlmpling frame and PERM errors must affect payment. CMS excluded State


                         1 Slale One refers 10 an unnamed Stall' reviewed by [h~ OtG.
                                                                                                       Page 2 of3




Page 2 - Dan iel R. Levinson


One' s in·state hospital inpatient and outpatient payments from the State's cllleuhllion of
the FY 2008 PERM error rate.

To help prevent such issues from surfacing in future PER!\If cycles, eMS fonned a Stale
systems workgroup for collaboration with eMS and the States to address State systems
problems, such as benefit infonnation not being slOrcd electronically, infomllltion oot
being stored at the beneficiary level. and to discuss a.ny other impediments 10 the
measurement process. CMS began this workgroup with a focus on States that panicil>3tcd
in the t' Y 2007 and FY 2008 cyclcs and intends to utilize it for subsequent cycles.
Through this workgroup, CMS spoke with Stllte One about their I'll' payments to in-state
hos pitals. Subsequent to the FY 2008 PERM cycle, Stale Onc implemenu."<I a new
Medicaid Management !nfonnlltion System which changes the way their hospitals arc
reimbursed. The State's hospitllls arc in the proccss of transitioning aWIlY from PIP
payments to a method ofreimbursemtmt that will fit into the I'E R!\If sampling frame. The
transition will be occurring throughout the upcoming cycle and is scheduled to be
complete in January 2012.

To address State One's hospital payments which will not transition in time for thc
FY 20 II cycle and for numerous other aggregate payments made by States which do not
fit under the current I' ERM sampling frame , CMS is developing an aggregate payment
methodology. This IIggregate payment methodology will allow St8lt:s, when appropriate,
to submit aggregate payments in the PERM uni\'erse for sampling and review and e MS
to include many more aggregate payments in the PERM mcasuremt:nt. CMS is currently
piloting this methodology and plans to incorporate it into the FY 201 1 error rate
measurement which will stan at the end of2010 and conclude in 2012.

DIG Recommendation

Continue to work with the States. eMS Regional Offices, and statistical contractor on
reconci ling the PERM universes to State financial repons.

CMS Responsl'

Thc e MS concurs lind has implemented Iltwo-stugc reconciliation process begiIUiillg
with the FY 2009 PERM cycle to ensure that Siaies' PERM universes Are complete and
accurate. The two-stage reconciliation process compares Stllte~' quarterly universe data
submission to the financial reports, ronns CMS-64 and CMS-2 1. In the first stage, eMS
asks Stales 10 compare their quarterly universe data submission 10 the previous two
qunners ofthesc fonns. The previous two qunners of these foons are used because the
PERM univen;e data submissions arc required prior to the lime these reporlS arc finali7.cd.
The fi rst stage of this two-stage recol'll;ilialion allows States to identify. prior to univ;..-rse
data submission, sources of incomplete or inaccurate univen;e data. The second stage is a
comparison, by the statistical contractor, of the curren t quarter's universe data with the
current quaner's fomls CMS-64 and CMS-21. In both stages orthe reconciliation, large
differences between universe data and these repons arc examined.
                                                                                                 Page 3 of3




Page 3 - Daniel R. Levinson


Implementi ng this two-stage process has proven beneficial to conducting FY 2009
reconciliations. First, in FY 2008, Financial Management Reports were used to reconcile
PERM universes instead of the forms CMS-64 and CMS-2 1. Using the CMS-64 and
CMS-21 forms in FY 2009 has allowed CMS to reconcile at a more detailed level and
identify potential missing data. In addition, the two-stage process has resulted in States
being more actively involved in reconciling PERl\1 univeTSt':s to financial reports. Many
Stales now involve fi nancial staff when creating PERM universes to ensure all Medicaid
and CHIP programs matched with federal funds are submitted for review. CMS intends
to continue to utilize and improve this reconciliation process in subsC<!uent PERM
measurement cycles. For example, in the FY 20 I 0 cycle eMS provided States with
reconciliation guidelines and a template to assist States with the first reconciliation stage.

The eMS appreciates the opportunilY10 review and comment on this OlG report and
looks forward 10 strengthening the PERM process.
